APPENDIX

1a
APPENDIX A
Court of Appeal, Second Appellate District, Division
Four - No. B304240
S266217
IN THE SUPREME COURT OF CALIFORNIA
En Banc
_________________________________________________
THE PEOPLE, Petitioner
v.
SUPERIOR COURT OF LOS ANGELES COUNTY,
Respondent;
CAL CARTAGE TRANSPORTATION EXPRESS,
LLC, et al., Real Parties in Interest.
_________________________________________________
The petition for review is denied.
[Filed February 24, 2021]

CANTIL-SAKAUYE
Chief Justice

2a
APPENDIX B
CERTIFIED FOR PUBLICATION
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION FOUR
FILED NOV. 19, 2020
________________________
THE PEOPLE OF THE STATE OF CALIFORNIA,
Petitioner
v.
SUPERIOR COURT OF LOS ANGELES COUNTY,
Respondent
CAL CARTAGE TRANSPORTATION EXPRESS
LLC, et al.,
Real Parties in Interest.
________________________
B304240
________________________
(Los Angeles County Super. Ct. Nos. BC689320,
BC689321, BC689322)
________________________
ORIGINAL PROCEEDINGS; petition for writ of
mandate. William F. Highberger, Judge. Petition
granted.
Office of the Los Angeles City Attorney, Michael
N. Feuer, Kathleen A. Kenealy, Michael J. Bostrom,

3a
Danielle L. Goldstein, and Christopher S. Munsey for
Petitioner.
Gibson, Dunn & Crutcher, Joshua S. Lipshutz,
Christopher D. Dusseault, Michele L. Maryott,
Dhananjay S. Manthripragada for Cal Cartage Transportation Express, LLC, K&R Transportation California, LLC, and CMI Transportation, LLC.
Scopelitis, Garvin, Light, Hanson & Feary, Christopher C. McNatt, Jr. for CCX2931, LLC, CM2931,
LLC, and KRT2931, LLC.
Altshuler Berzon, Stacey Leyton and Andrew
Kushner for International Brotherhood of Teamsters
as Amicus Curiae on behalf of Petitioner.
Xavier Becerra, Attorney General, Thomas S. Patterson Senior Assistant Attorney General, Tamar
Pachter, and Jose A. Zelidon-Zepeda, Deputy Attorneys General for the Attorney General of California as
Amicus Curiae on behalf of Petitioner.
Barbara J. Parker, Oakland City Attorney, Maria
Bee, Erin Bernstein, Malia McPherson, and Nicholas
DeFiesta for City of Oakland as Amicus Curiae on behalf of Petitioner.
Dennis J. Herrera, San Francisco City Attorney,
Yvonne Meré, and Molly Alarcon for City and County
of San Francisco as Amicus Curiae on behalf of Petitioner.
Horvitz & Levy, Jeremy B. Rosen for The Chamber of Commerce of the United States of America as
Amicus Curiae on behalf of Real Parties in Interest.
Ellison, Whalen & Blackburn, Patrick J. Whalen
for Western States Trucking Association as Amicus
Curiae on behalf of Real Parties in Interest.

4a
Littler Mendelson, Richard H. Rahm for American
Trucking Associations, Inc. and California Trucking
Association as Amicus Curiae on behalf of Real Parties in Interest.
INTRODUCTION
Does the Federal Aviation Administration Authorization Act of 1994 (FAAAA) preempt application
of California’s “ABC” test, originally set forth in Dynamex Operations W. v. Superior Court (2018) 4
Cal.5th 903 (Dynamex) and eventually codified by Assembly Bill 2257 (AB 2257), to determine whether a
federally licensed interstate motor carrier has correctly classified its truck drivers as independent contractors? The FAAAA preempts state laws “related to
a price, route, or service of any motor carrier . . . with
respect to the transportation of property.” (49 U.S.C.
§ 14501(c)(1).) After surveying the FAAAA’s legislative history and relevant federal caselaw, our Supreme Court held the FAAAA does not preempt generally applicable worker-classification laws that do
not prohibit the use of independent contractors. (People ex rel. Harris v. Pac Anchor Transportation, Inc.
(2014) 59 Cal.4th 772, 785-87 (Pac Anchor).) We hold
the ABC test, as codified by AB 2257, is such a law,
and therefore is not preempted by the FAAAA.

5a
FACTUAL AND PROCEDURAL
BACKGROUND1
Defendants2 are federally licensed motor carriers
that operate or have operated “‘trucking and drayage
compan[ies] . . . in and around the Ports of Los Angeles
and Long Beach.’” Defendants utilize the services of
independent owner-operator truck drivers — independent truckers who lease their vehicles and services
to a licensed motor carrier to move freight under the
motor carrier’s operating authority — to perform
drayage (defined in the complaints as “the short distance transportation of cargo by truck to and from the
ports”).
In 2018, in connection with Senate Bill No. 1402,3
the California Legislature found “California’s port
drayage drivers are the last American sharecroppers,
held in debt servitude and working dangerously long
hours for little pay.” (Senate Bill No. 1402 (2017-2018
Reg. Sess.) § 1(b).) It cited an investigative report
finding “‘port trucking companies in Southern California have spent the past decade forcing drivers to finance their own trucks by taking on debt they could
not afford.’ The investigation found instances where

1

The factual statements in this section are largely taken from
the allegations in the People’s complaints and the trial court’s
January 8, 2020 order.
2
Defendants are Cal Cartage Transportation Express, LLC,
CMI Transportation, LLC, K&R Transportation California, LLC,
CCX2931, LLC, CM2931, LLC, and KRT2931, LLC.
3
Senate Bill No. 1402 amended the California Labor Code to,
among other things, require the Division of Labor Standards Enforcement to publicly post the identities of drayage companies
with unsatisfied misclassification judgments against them. (Senate Bill No. 1402 (2017-2018 Reg. Sess.) § 2.)

6a
drivers ‘end up owing money to their employers – essentially working for free.’” (Id., § 1(c).) The Legislature further found “[d]rayage drivers at California
ports are routinely misclassified as independent contractors when they in fact work as employees under
California and federal labor laws. A recent report
finds that two-thirds of California port drayage drivers fall under this category, and rampant misclassification of drivers contributes to wage theft and leaves
drivers in a cycle of poverty.” (Id., § 1(f).)
On January 8, 2018, the Los Angeles City Attorney, acting on behalf of the People of the State of California, filed complaints against the defendants in
three related cases,4 alleging two causes of action under the Unfair Competition Law (UCL), Cal. Bus. &
Prof. Code § 17200, et seq. The first cause of action is
predicated on defendants’ alleged misclassification of
truck drivers as independent contractors, and the second on defendants’ alleged violations of the federal
Truth-in-Leasing Regulations, 49 C.F.R. § 376.1, et
seq. The complaints allege defendants misclassified
truck drivers as independent contractors and therefore engaged in unfair competition by failing to: (1)
pay unemployment insurance taxes (Unemp. Ins.
Code, § 976); (2) pay employment training fund taxes
(id., § 976.6); (3) withhold state disability insurance
taxes (id., § 984); (4) withhold state income taxes (id.,
§ 13020); (5) provide workers’ compensation (Lab.
Code, § 3700); (6) provide employees with itemized
written wage statements (id., § 226) and to maintain

4

The three related cases are: People v. Cal Cartage Transportation Express LLC, et al. (Case No. BC689320); People v. CMI
Transportation LLC, et al. (Case No. BC689321); and People v.
K&R Transportation California LLC, et al. (Case No. BC689322).

7a
and provide employees with records in violation California’s Industrial Welfare Commission wage order
No. 9-2001, section 7 (Industrial Welfare Commission
Wage Order No. 9); (7) reimburse employees for business expenses and losses (Lab. Code, § 2802); and (8)
ensure payment of the minimum wage at all times
(Lab. Code, § 1194, Industrial Welfare Commission
Wage Order No. 9, § 4). Specifically, the People allege
defendants deduct from drivers’ pay, or fail to reimburse for, work-related expenses including fuel, truck
insurance, parking, and routine maintenance costs,
amounting to tens of thousands of dollars per year.
When the People filed their complaints, the test
for worker classification in California was governed by
S.G. Borello & Sons v. Department of Industrial Relations (1989) 48 Cal.3d 341 (Borello).5 In April 2018,
our Supreme Court decided Dynamex, replacing the
Borello standard with the “ABC” test for claims
brought under California’s Wage Orders. The ABC
test requires a worker be classified as an employee unless: (A) “the worker is free from the control and direction of the hiring entity in connection with the performance of the work, both under the contract for the
performance of the work and in fact[;]” (B) “the worker
performs work that is outside the usual course of the
hiring entity’s business[;] and” (C) “the worker is customarily engaged in an independently established
trade, occupation, or business[.]” (Dynamex, supra, 4
Cal.5th at p. 964.)

5

The Borello standard is a multi-factor test, not to be “. . . ‘applied mechanically as separate tests[,]’” to determine whether a
worker is an employee or an independent contractor. (Borello, supra, 48 Cal.3d at p. 351.)

8a
In 2019, the Legislature passed and the Governor
signed into law Assembly Bill 5 (AB 5). Effective January 1, 2020, AB 5 codified (as Labor Code section
2750.3) the ABC test and expanded its reach to apply
to all claims under the Labor Code and the Unemployment Insurance Code. (Stats. 2019, ch. 296, § 2.) AB
5 also included exemptions that were not part of the
Dynamex test, including an exemption for “businessto-business contracting relationship[s].”
On September 4, 2020, however, after the petition
in these related cases was filed, the Legislature
passed and the Governor signed AB 2257, which repealed and replaced the statutory changes enacted by
AB 5. (Stats. 2020, ch. 38, § 2.) AB 2257 revised certain exemptions to the ABC test, including the business-to-business exemption, and created additional
exemptions. (Lab. Code § 2775, et seq.) Under Labor
Code section 2775, subdivision (a)(3), “[i]f a court of
law rules that the [ABC] test . . . cannot be applied to
a particular context . . . then the determination of employee or independent contractor status in that context shall instead be governed by [Borello].”6 Because
the parties disagreed whether the ABC test or the Borello standard applies to the People’s misclassification-based UCL claims, the trial court permitted defendants to submit a motion in limine, before substantial discovery or filing of dispositive motions, addressing (1) whether Dynamex is preempted by federal law;

6

On September 16, 2020, we requested supplemental briefing
from the parties to address the significance, if any, of the revisions to the statutes put in place by AB 2257. We reviewed the
supplemental briefs, and, in this opinion, address whether the
relevant statutes, as modified by AB 2257, are preempted by the
FAAAA.

9a
and (2) whether Dynamex can be applied retroactively.7 Following two rounds of briefing and two
hearings, the trial court directed both parties to lodge
proposed orders. After argument at the second hearing, the trial judge noted he was “tending away from
finding preemption[,]” but that his indecision “would
tend to indicate why it’s a very suitable matter for appeal.” Ultimately, the court adopted defendants’ proposed order without significant modification, granting
in part defendants’ motion in limine.
It held
“[b]ecause Prong B of the ABC Test under both Dynamex and AB 5 prohibits motor carriers from using
independent contractors to provide transportation
services, the ABC Test has an impermissible effect on
motor carriers’ ‘price[s], route[s], [and] service[s]’ and
is preempted by the FAAAA.” It certified its ruling for
writ review pursuant to Code of Civil Procedure section 166.1.
The People petitioned this court for a writ of mandate directing respondent court to vacate its order or,
at a minimum, to issue an alternative writ or order to
show cause directing the real parties in interest to
show cause why the writ should not issue. We summarily denied the petition. The California Supreme
Court granted the People’s petition for review and
transferred the matter back to this court with directions to vacate our order denying mandate and to issue an order directing respondent superior court to
7

Although used most often to resolve questions of admissibility of evidence, use of a motion in limine to secure an early ruling
on a potentially dispositive legal issue can be a useful tool in the
management of complex litigation. Trial courts have inherent
powers to employ motions in limine to dispose of claims in appropriate circumstances. (Amtower v. Photon Dynamics, Inc. (2008)
158 Cal.App.4th 1582, 1595; Blanks v. Seyfarth Shaw LLP (2009)
171 Cal.App.4th 336, 375-376.)

10a
show cause why the relief sought in the petition
should not be granted. We complied, issuing an order
to show cause on July 10, 2020. Real parties in interest filed a return, and the People filed a reply. We also
granted the applications of the International Brotherhood of Teamsters, the California Attorney General,
the City of Oakland, and the City and County of San
Francisco to file amicus briefs in support of the People, and The Chamber of Commerce of the United
States of America, American Trucking Associations,
Inc. and California Trucking Association, and Western States Trucking Association to file amicus briefs
in support of defendants.
DISCUSSION
A. Standard of Review
Preemption Principles

and

Federal

We review de novo a trial court’s decisions regarding preemption and statutory construction. (See, e.g.,
Roberts v. United Healthcare Services, Inc. (2016) 2
Cal.App.5th 132, 142 [“Where, as here, preemption
turns on questions of law such as the meaning of a
preemption clause or the ascertainment of congressional intent, our review is de novo. [Citations.]”];
Farm Raised Salmon Cases (2008) 42 Cal.4th 1077,
1089, fn. 10 [“federal preemption presents a pure
question of law. [Citation.]”].) Also, “[w]hen a motion
in limine ‘results in the entire elimination of a cause
of action or a defense, we treat it as a demurrer to the
evidence and review the motion de novo . . . .’ [Citation.]” (Legendary Investors Group No. 1, LLC v. Niemann (2014) 224 Cal.App.4th 1407, 1411)
“The United States Supreme Court has identified
‘two cornerstones’ of federal preemption analysis. [Ci-

11a
tation.] First, the question of preemption ‘“fundamentally is a question of congressional intent.”’ [Citations.] If a statute ‘contains an express pre-emption
clause, our “task of statutory construction must in the
first instance focus on the plain wording of the clause,
which necessarily contains the best evidence of Congress’ pre-emptive intent.”’ [Citations.] ‘“Also relevant, however, is the ‘structure and purpose of the
statute as a whole,’ [citation] as revealed not only in
the text, but through the reviewing court’s reasoned
understanding of the way in which Congress intended
the statute and its surrounding regulatory scheme to
affect business, consumers, and the law.”’ [Citations.]” (Brown v. Mortensen (2011) 51 Cal.4th 1052,
1059-1060.)
B. The FAAAA
Our Supreme Court explained the history and
purpose of the FAAAA in Pac Anchor, supra, 59
Cal.4th at p. 779-782. “‘In 1978, Congress “determine[d] that ‘maximum reliance on competitive market forces’” would favor lower airline fares and better
airline service, and it enacted the [Airline Deregulation Act (ADA)].’ [Citation.] ‘In order to ensure that
the States would not undo federal deregulation with
regulation of their own,” that Act “included a pre-emption provision” that said “no State . . . shall enact or
enforce any law . . . relating to rates, routes, or services of any air carrier.”’ [Citation.]” (Id. at p. 779.)
In 1980, Congress deregulated trucking with the
adoption of the Motor Carrier Act of 1980 (Pub. L. No.
96-296 (July 1, 1980) 94 Stat. 793.) “‘In 1994, Congress similarly sought to pre-empt state trucking regulation[]’ [citation]” with the adoption of the FAAAA.
(Pac Anchor, supra, 59 Cal.4th at p. 779.) In doing so,
it borrowed language from the ADA and included the

12a
following express preemption clause: “Except as provided in paragraphs (2) and (3), a State, political subdivision of a State, or political authority of 2 or more
States may not enact or enforce a law, regulation, or
other provision having the force and effect of law related to a price, route, or service of any motor carrier
. . . with respect to the transportation of property.” (49
U.S.C. § 14501(c)(1).) “Specifically, the FAAAA was
intended to prevent state regulatory practices including ‘entry controls, tariff filing and price regulation,
and [regulation of] types of commodities carried.’
(H.R. Rep. No. 103-677, 2d Sess., p. 86 (1994), reprinted in 1994 U.S. Code Cong. & Admin. News,
p. 1758).” (Pac Anchor, supra, 59 Cal.4th at pp. 779780.) “The phrase ‘related to,” [in the FAAAA’s
preemption clause] . . . embraces state laws ‘having a
connection with or reference to’ carrier ‘“rates, routes,
or services,”’ whether directly or indirectly. [Citations.]” (Dan’s City Used Cars, Inc. v. Pelkey (2013)
569 U.S. 251, 260 [133 S.Ct. 179, 185 L.Ed. 2d 909]
(Dan City).) The FAAAA, however, does not “preempt
state laws affecting carrier prices, routes, or services
‘in only a “tenuous, remote, or peripheral . . . manner.”’
[Citations.] (Id. at p. 261 (alteration in original).)
The defendants offered no evidence, and the trial
court made no factual findings, concerning the impact,
if any, of application of the ABC test on motor carriers’
prices, routes, and services.8 To the extent they had a

8

The trial court made only one factual finding, stating that in
circumstances where defendants “contracted with licensed motor-carriers to transport loads, the cost of such transport was
nearly triple the cost of using independent owner-operators for
the same route.” But that finding is irrelevant to our inquiry.
There is no evidence in the record of the pricing impact, if any, of

13a
burden to prove more than a tenuous or peripheral impact, rather than simply make arguments, the defendants did not carry it. If we were writing on a clean
slate, that would end our inquiry and we would conclude defendants failed to demonstrate that application of the ABC test actually would impact prices,
routes, or services. But we are not. Instead, courts
have taken to deciding similar issues on their own,
based on something other than facts or expert opinion.
For example, in Pac Anchor our Supreme Court decided whether an action under California’s Unfair
Competition Law was preempted by the FAAAA without a developed factual record (the defendants presented the issue in the context of a motion for judgment on the pleadings). (Pac Anchor, supra, 59
Cal.4th at pp. 775-777.)9 And so, we turn to the central issue: does the FAAAA preempt application of the
ABC test?10

defendants using employees rather than independent contractors, nor of contracting with businesses other than a licensed motor carrier to transport loads.
9
See also Schwann v. FedEx Ground Package Sys. (1st Cir.
2016) 813 F.3d 429, 437, quoting Mass. Delivery Ass’n v. Coakley
(1st Cir. 2014) 769 F.3d 11, 21 (Schwann) (“‘[A] statute’s “potential” impact on carriers’ prices, routes, and services’ need not be
proven by empirical evidence; rather, courts may ‘look[ ] to the
logical effect that a particular scheme has on the delivery of services.’ [Citations.]”)
10
The same issue is pending in the Ninth Circuit in California
Trucking Ass’n, et al. v. Becerra, et al., case Nos. 20-55106 and
20-55107. The case was argued and, as of the date of this opinion, is under submission. The First Circuit held prong B of Massachusetts’ ABC test (which contains the same language as California’s ABC test) is preempted by the FAAAA. (Schwann, supra, 813 F.3d at p. 440.) The federal district courts are split on
the issue. (See, e.g., Henry v. Cent. Freight Lines, Inc. (E.D. Cal.
June 13, 2019) 2019 U.S. Dist. LEXIS 99594, at p. 19 [holding

14a
C. The FAAAA Does Not Preempt the ABC
Test
Defendants contend prong B of the ABC test
makes it impossible for a motor carrier to contract
with an owner-operator as an independent contractor,
and thus the ABC test is preempted by the FAAAA
under the clear terms of Pac Anchor. The People counter the ABC test is not preempted because it is a generally applicable employment law that does not prohibit the use of independent contractors, and therefore does not have an impermissible effect on prices,
routes, or services. We agree with the People. Our
conclusion is compelled by the California Supreme
Court’s decision in Pac Anchor, and the FAAAA’s legislative history, as discussed below.
In Pac Anchor, the California Supreme Court held
the FAAAA did not preempt a claim under the UCL
premised on truck drivers being misclassified as independent contractors.11 The defendants argued the
the FAAAA does not preempt application of the ABC test because
the “ABC test is a general classification test that does not apply
to motor carriers specifically and does not, by its terms, compel a
carrier to use an employee or an independent contractor”]; Western States Trucking Ass’n v. Schoorl (E.D. Cal. 2019) 377
F.Supp.3d 1056, 1072-1073 [same]; Alvarez v. XPO Logistics
Cartage LLC (C.D. Cal. Nov. 15, 2018) 2018 U.S. Dist. LEXIS
208110, at p. 15 [finding the FAAAA preempts the ABC test];
Valdez v. CSX Intermodal Terminals, Inc. (N.D. Cal. Mar. 15,
2019) 2019 U.S. Dist. LEXIS 77258, at pp. 24-28 [finding the
FAAAA preempts part B of the ABC test].)
11
The People’s UCL claim here is essentially identical to that
in Pac Anchor. Both are premised on an alleged misclassification
of truck drivers as independent contractors rather than employees. (See Pac Anchor, supra, 59 Cal.4th at p. 776.) At the second
hearing in the trial court, the People’s counsel noted he used the
complaint in Pac Anchor “as a model” when drafting one of the
complaints in this action.

15a
“People’s UCL claim will significantly affect motor
carrier prices, routes, and services because its application will prevent their using independent contractors, potentially affecting their prices and services.”
(Pac Anchor, supra, 59 Cal.4th at p. 785.) They also
contended “if the People’s UCL action is successful,
they will have to reclassify their drivers as employees,
driving up their cost of doing business and thereby affecting market forces.” (Ibid.) After analyzing the legislative history of the FAAAA and relevant United
States Supreme Court, Ninth Circuit, and other precedent, the Pac Anchor court rejected the defendants’
arguments. (Id. at pp. 782-784.) The court reasoned
that a “UCL action that is based on an alleged general
violation of labor and employment laws does not implicate [Congress’s] concerns” about “regulation of motor carriers with respect to the transportation of property[.]” (Id. at p. 783.) It further explained: “Defendants’ assertion that the People may not prevent them
from using independent contractors is correct, but its
characterization of the People’s UCL claim is not.
Nothing in the People’s UCL action would prevent defendants from using independent contractors. The
People merely contend that if defendants pay individuals to drive their trucks, they must classify these
drivers appropriately and comply with generally applicable labor and employment laws.” (Id. at p. 785)
The court also rejected defendants’ argument that enforcement of California’s general employment laws
was contrary to the FAAAA’s “deregulatory purpose.”
(Id. at p. 786.) The court explained that while “Congress passed the FAAAA in order to end a patchwork
of state regulations[,] . . . nothing in the congressional
record establishes that Congress intended to preempt
states’ ability to tax motor carriers, to enforce labor
and wage standards, or to exempt motor carriers from

16a
generally applicable insurance laws.
(Ibid.)

[Citations.]”

Pac Anchor is dispositive. Like the labor laws examined in that case, the ABC test is a law of general
application.12 The ABC test does not mandate the use
of employees for any business or hiring entity. Instead, the ABC test is a worker-classification test that
states a general and rebuttable presumption that a
worker is an employee unless the hiring entity demonstrates certain conditions. That independent owneroperator truck drivers, as defendants currently use
them, may be incorrectly classified, does not mean the
ABC test prohibits motor carriers from using independent contractors. The ABC test, therefore, is not
the type of law Congress intended to preempt. (See
Pac Anchor, supra, 59 Cal.4th at p. 787 [noting the
congressional record showed “Congress disapproved of
a California law that denied advantageous regulatory
exemptions to motor carriers who used a large proportion of independent contractors[,]” but unlike that
law, “the People’s UCL action does not encourage employers to use employee drivers rather than independ-

12

We reject defendants’ contention that the ABC test, as codified in AB 2257, is not a law of general application because the
law includes exemptions for several occupations and industries.
(See, e.g., Godfrey v. Oakland Port Services Corp. (2014) 230
Cal.App.4th 1267, 1280 [finding California’s meal and rest break
laws to be generally applicable – and not preempted by the
FAAAA – despite those laws’ legislative exemptions].) But we
recognize, as did our Supreme Court in Pac Anchor, that even
laws of general applicability can be preempted if they have a direct effect on carriers’ prices, routes, or services. (Pac Anchor,
supra, 59 Cal.4th at pp. 784-785; see also Morales v. TWA (1992)
504 U.S. 374, 386 [112 S.Ct. 2031, 119 L.Ed.2d 157].)

17a
ent contractors. Defendants are free to use independent contractors as long as they are properly classified[.]”].)
Pac Anchor also relied on the Ninth Circuit’s discussion in Californians for Safe & Competitive Dump
Truck Transp. v. Mendonca (9th Cir. 1998) 152 F.3d
1184 (Mendonca) of indirect evidence of Congress’s intent when it enacted the FAAAA. In Mendonca, the
court held California’s generally applicable prevailing
wage laws were not preempted by the FAAAA in part
because several states Congress identified as not having laws regulating interstate trucking had prevailing
wage laws in place at the time the FAAAA was enacted. (Pac Anchor, supra, 59 Cal.4th at p. 786.) Pac
Anchor noted “[s]imilarly, eight out of the 10 jurisdictions identified in Mendonca had generally applicable
laws governing when a worker is an independent contractor (or the equivalent) and when a worker is an
employee. [Citations.] Thus, even though the People’s UCL action may have some indirect effect on defendants’ prices or services, that effect is ‘“too tenuous,
remote [and] peripheral . . . to have pre-emptive effect.”’ [Citation.]” (Ibid.) Notably, one of the statutes
Pac Anchor identified, Wis. Stat. § 102.07, contains
similar language to prong B of California’s ABC test.
(Compare Wis. Stat. § 102.07, subd. (8)(a) (1994) [“Except as provided in par. (b) and (bm), every independent contractor is, for the purpose of this chapter, an
employee of any employer under this chapter for
whom he or she is performing service in the course of
the trade, business, profession or occupation of such
employer at the time of the injury”] and Lab. Code,
§ 2775, subd. (b)(1)(B) [a worker is an employee unless
the hiring entity can demonstrate “[t]he person performs work that is outside the usual course of the hiring entity’s business.”].) As noted in Pac Anchor, this

18a
legislative history suggests Congress did not intend to
preempt worker-classification laws like the ABC test.
Moreover, that the statutory scheme codified by
AB 2257 is not one that prohibits motor carriers from
using independent contractors (and therefore, does
not have an impermissible effect on prices, routes, or
services) is further supported by the business-to-business exemption in Labor Code section 2776. Under
that exemption, the ABC test does not apply to a business-to-business contracting relationship, including
contracts between licensed motor carriers and independent owner-operators who may operate as sole
proprietorships, LLC’s, or other business entities, if
the hiring entity demonstrates a list of criteria is satisfied. (Lab. Code, § 2776, subd. (a).) If an individual
or entity qualifies for the exemption, “the determination of employee or independent contractor status [of
the individual doing the work] shall [ ] be governed by
[the Borello standard].”13 (Ibid.) Defendants argue

13

The full text of the business-to-business exemption states:
“Section 2775 and the holding in Dynamex do not apply to a bona
fide business-to-business contracting relationship, as defined below, under the following conditions: [¶] (a) If an individual acting
as a sole proprietor, or a business entity formed as a partnership,
limited liability company, limited liability partnership, or corporation (‘business service provider’) contracts to provide services
to another such business or to a public agency or quasi-public
corporation (‘contracting business’), the determination of employee or independent contractor status of the business services
provider shall be governed by Borello, if the contracting business
demonstrates that all of the following criteria are satisfied:
[¶] (1) The business service provider is free from the control and
direction of the contracting business entity in connection with
the performance of the work, both under the contract for the performance of the work and in fact. [¶] (2) The business service provider is providing services directly to the contracting business

19a

rather than to customers of the contracting business. This subparagraph does not apply if the business service provider’s employees are solely performing the services under the contract under the name of the business service provider and the business
service provider regularly contracts with other businesses. [¶] (3)
The contract with the business service provider is in writing and
specifies the payment amount, including any applicable rate of
pay, for services to be performed, as well as the due date of payment for such services. [¶] (4) If the work is performed in a jurisdiction that requires the business service provider to have a business license or business tax registration, the business service
provider has the required business license or business tax registration. [¶] (5) The business service provider maintains a business location, which may include the business service provider’s
residence, that is separate from the business or work location of
the contracting business. [¶] (6) The business service provider is
customarily engaged in an independently established business of
the same nature as that involved in the work performed. [¶] (7)
The business service provider can contract with other businesses
to provide the same or similar services and maintain a clientele
without restrictions from the hiring entity. [¶] (8) The business
service provider advertises and holds itself out to the public as
available to provide the same or similar services. [¶] (9) Consistent with the nature of the work, the business service provider
provides its own tools, vehicles, and equipment to perform the
services, not including any proprietary materials that may be
necessary to perform the services under the contract. [¶] (10) The
business service provider can negotiate its own rates. [¶] (11)
Consistent with the nature of the work, the business service provider can set its own hours and location of work. [¶] (12) The
business service provider is not performing the type of work for
which a license from the Contractors’ State License Board is required, pursuant to Chapter 9 (commencing with Section 7000)
of Division 3 of the Business and Professions Code. [¶] (b) When
two bona fide businesses are contracting with one another under
the conditions set forth in subdivision (a), the determination of
whether an individual worker who is not acting as a sole proprietor or formed as a business entity, is an employee or independent contractor of the business service provider or contracting
business is governed by Section 2775. [¶] (c) This section does not

20a
independent owner-operators can never meet several
of the requirements in the business-to-business exemption, and thus, the exemption does not save the
statutes codified by AB 2257 from preemption. We are
unpersuaded.
First, defendants argue the licensing requirement
of the exemption makes it impossible for independent
owner-operators to qualify for the exemption: “If the
work is performed in a jurisdiction that requires the
business service provider to have a business license or
business tax registration, the business service provider has the required business license or business tax
registration.” (Lab. Code, § 2776, subd. (a)(4).) Defendants claim this provision requires truck drivers to
have a federal motor carrier operating license, but
“[i]ndependent owner-operator truck drivers, by definition lack motor carrier licenses and thus cannot
meet this requirement.” We agree with the People,
however, that the more natural construction of a
“business license” is that the phrase refers to the licenses issued by local governments (“jurisdictions”
within the State of California) for health and safety
regulation and tax purposes. Indeed, other subdivisions of AB 2257 distinguish between “business license[s]” and other permits and licenses. (See, e.g.,
Lab. Code, § 2781, subds. (c) & (h)(1)(C) [for the construction industry exemption, the contractor must
demonstrate, among other requirements, that the
“subcontractor has the required business license or
business tax registration” and the “subcontractor utilizes its own employees to perform the construction
trucking services, unless the subcontractor is a sole
proprietor who operates their own truck to perform
alter or supersede any existing rights under Section 2810.3.”
(Lab. Code, § 2776.)

21a
the entire subcontract and holds a valid motor carrier
permit issued by the Department of Motor Vehicles.”].)
Second, the business-to-business exemption applies only if the owner-operator is “providing services
directly to the [motor carrier] rather than to customers of the [motor carrier].” (Lab. Code, § 2776, subd.
(a)(2).) Defendants contend this condition is impossible for an owner-operator to meet because an owneroperator contracting with a motor carrier necessarily
is providing services to the motor carrier’s customers
by moving the customer’s goods at the customer’s direction. But defendants provide no support for their
strained reading of this provision. Motor carriers —
not the motor carriers’ customers — could contract
with owner-operators (or other business entities meeting the requirements of the business-to-business exemption), direct their actions, and pay them. Services
would be provided by the owner-operators directly to
the motor carriers, notwithstanding that those services would include moving freight belonging to the
motor carrier’s customers.
Moreover, defendants offered no evidence demonstrating it would be impossible to meet the requirements of the business-to-business exemption. Indeed,
the only evidence submitted in the trial court (attached to the People’s counsel’s declaration in support
of their opposition to defendants’ motion in limine) indicates at least one defendant does not operate any of
its own trucks, and instead contracts not only with independent truckers, but also with trucking companies. Those trucking companies, referred to as “outside carriers” or “outside brokers,” are legally organized business entities and appear to be among the

22a
kinds of businesses contemplated by the business-tobusiness exemption.
We therefore conclude defendants have not
demonstrated, as they must under Pac Anchor, that
application of the ABC test prohibits motor carriers
from using independent contractors or otherwise directly affects motor carriers’ prices, routes, or services. Nothing in Pac Anchor nor the FAAAA’s legislative history suggests Congress intended to preempt
a worker-classification test applicable to all employers
in the state.

23a
DISPOSITION
Let a peremptory writ of mandate issue directing
respondent court to vacate its January 8, 2020 order
granting in part defendants’ motion in limine, and enter a new order denying that motion because the statutory amendments implemented by AB 2257 are not
preempted by the FAAAA. We express no view on the
two alternative arguments raised in defendants’ motion in limine, which respondent court denied without
prejudice, i.e., whether the ABC test violates the
Dormant Commerce Clause or that it may not be applied retroactively. The People are awarded their
costs in this original proceeding.
CERTIFIED FOR PUBLICATION

CURREY, J.

We concur:

MANELLA, P.J.

COLLINS, J.

24a
APPENDIX C
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION FOUR
______________
THE PEOPLE OF THE STATE OF CALIFORNIA,
Petitioner,
v.
SUPERIOR COURT OF LOS ANGELES COUNTY,
Patent Owner.
CAL CARTAGE TRANSPORTATION EXPRESS
LLC et al.,
Real Parties in Interest.
______________
B304240
______________
(Los Angeles County Super. Ct. No. BC689320,
BC689321, BC689322) (William F. Highberger,
Judge)
ORDER TO SHOW CAUSE; ORDER VACATING
MARCH 26, 2020 DENIAL ORDER
TO THE SUPERIOR COURT OF LOS ANGELES
COUNTY:
On June 17, 2020, the California Supreme Court
issued an order (S261764), directing this court to vacate its March 26, 2020 order summarily denying the

25a
petition for writ of mandate and to issue an order to
show cause directing the superior court to show cause
why the relief sought should not be granted.
Based on that order, you are hereby required to
SHOW CAUSE before this court in its courtroom at
300 South Spring Street, Los Angeles, California, on
October 16, 2020, at 9:00 a.m.
The written return to this Order to Show Cause
shall be filed and served on or before August 7, 2020.
Petitioner may file and serve a reply on or before
September 4, 2020.

MANELLA, P.J.

COLLINS, J.

CURREY, J.

26a
APPENDIX D
Court of Appeal, Second Appellate District, Division
Four - No. B30424
S261764
IN THE SUPREME COURT OF CALIFORNIA
En Banc

THE PEOPLE, Petitioner,
v.
SUPERIOR COURT OF LOS ANGELES COUNTY,
Respondent,
CAL CARTAGE TRANSPORTATION EXPRESS
LLC et al., Real Parties in Interest.
The petition for review is granted. The matter is
transferred to the Court of Appeal, Second Appellate
District, Division Four, with directions to vacate its
order denying mandate and to issue an order directing
respondent superior court to show cause why the relief sought in the petition should not be granted.

Cantil-Sakauye
Chief Justice

Chin
Associate Justice

27a

Corrigan
Associate Justice

Liu
Associate Justice

Cuellar
Associate Justice

Kruger
Associate Justice

Groban
Associate Justice

28a
APPENDIX E
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION FOUR
______________
THE PEOPLE OF THE STATE OF CALIFORNIA,
Petitioner,
v.
SUPERIOR COURT OF LOS ANGELES COUNTY,
Respondent;
CAL CARTAGE TRANSPORTATION EXPRESS
LLC et al.,
Real Parties in Interest.
______________
B304240
______________
(Los Angeles County Super. Ct. No. BC689320,
BC689321, BC689322) (William F. Highberger,
Judge)
ORDER
THE COURT: *
The petition for writ of mandate filed on February
18, 2020, along with the preliminary opposition and
reply have been read and considered. The petition is
denied. (Omaha Indemnity Co. v. Superior Court
(1989) 209 Cal.App.3d 1266, 1273.)

29a
[Filed March 26, 2020]

*MANELLA, P.J. COLLINS, J.

CURREY, J.

30a
APPENDIX F
SUPERIOR COURT OF THE STATE OF
CALIFORNIA
FOR THE COUNTY OF LOS ANGELES
______________
THE PEOPLE OF THE STATE OF CALIFORNIA,
Plaintiff,
v.
CAL CARTAGE TRANSPORTATION EXPRESS
LLC, CCX2931, LLC and DOES 1-50, inclusive,
Defendants.
______________
CASE NO. BC689320
Related Cases: BC689321, BC689322,
19STCV19291, 19STCV0377
ORDER GRANTING IN PART
DEFENDANTS’ MOTION IN LIMINE RE
PREEMPTION AND NON-RETROACTIVITY
OF ABC WORKER CLASSIFICATION TEST
Assigned for all purposes to:
Hon. William F. Highberger
Dept.: SSC-10
Action Filed: January 8, 2018
Trial Date: None Set.

31a
ORDER GRANTING IN PART DEFENDANTS’
MOTION IN LIMINE
I.

Executive Summary

After careful consideration, the Court agrees with
Defendants that the currently operative legal requirements for determination of employee versus independent contractor status are preempted as to certain
motor carriers and their drivers by an act of Congress.
A preemption determination is not a relative weighing
of the desirability of a given state’s legal regime as opposed to the rules which Congress seeks to impose.
Rather, it is simply a determination that Congress has
exercised its overriding powers under the Supremacy
and Commerce clauses of the United States Constitution to require a uniform rule to apply in all 50 states.
Here the requirements of the “ABC Test” set forth in
Dynamex Operations West v. Superior Court (2018) 4
Cal.5th 903 (“Dynamex”) and the recently enacted Assembly Bill 5 (“AB 5”) clearly run afoul of Congress’s
1994 determination in the Federal Aviation Administration Authorization Act (the “FAAAA”), 49 U.S.C.
§ 14501(c)(1) that a uniform rule endorsing use of nonemployee independent contactors (commonly known
in the trucking industry as “owner-operators”) should
apply in all 50 states to increase competition and reduce the cost of trucking services. This conclusion is
supported both by the detailed analysis which follows
and by the recent ruling of the United States District
Court for the Southern District of California in Case
No. 3:18-cv-02458 California Trucking Ass’n v.
Becerra on Dec. 31, 2019, granting a Temporary Restraining Order against the State’s representatives
prohibiting enforcement of AB 5.
The legislative history of the FAAAA makes plain
there was a desire to preempt a specific California

32a
statute which limited use of owner-operators by
freight companies, such as Roadway Express, which
were in competition with Federal Express, then solely
regulated as an air carrier. Although this case does
not specifically involve competitors in the over-night
cargo business, the Court is strongly persuaded by the
House Report’s reference to this statute as objectionable, which demonstrates Congress’s intent to protect
the owner-operator business model in the trucking industry and preclude its replacement by an “employeeoperator” regime. The Court is also highly persuaded
by the rulings of the First Circuit and the Supreme
Judicial Court of Massachusetts holding that the
FAAAA does preempt the ABC Test in the formulation
used in both Massachusetts and California.
(Schwann v. FedEx Ground Package System, Inc. (1st
Cir. 2016) 813 F.3d 429; Chambers v. RDI Logistics,
Inc. (2016) 476 Mass. 95; see also Bedoya v. American
Eagle Express Inc. (3d Cir. 2019) 914 F.3d 812 (finding
no FAAAA preemption of New Jersey’s ABC test because it does not apply to workers who perform services “outside of all the places of business of the enterprise for which such service is performed”).)
Defendants1 placed this question before the Court
by moving in limine for an order determining that the
claims set forth in this case should be adjudicated
with reference to the worker classification test set
forth in S. G. Borello & Sons, Inc. v. Department of
Industrial Relations (1989) 48 Cal.3d 341 (“Borello”),
rather than the “ABC Test” set forth in Dynamex Operations West v. Superior Court (2018) 4 Cal.5th 903
(“Dynamex”) and the recently enacted Assembly Bill 5
1

Defendants are Cal Cartage Transportation Express, LLC,
CMI Transportation, LLC, K&R Transportation California, LLC,
CCX2931, LLC, CM2931, LLC, and KRT2931, LLC.

33a
(“AB 5”). This is so, Defendants argue, because (1)
Prong B of the ABC Test as applied to motor carriers
is preempted by the FAAAA, 49 U.S.C. § 14501(c)(1);
(2) the ABC Test as applied to motor carriers violates
the Dormant Commerce Clause of the U.S. Constitution; and (3) the ABC Test cannot be applied retroactively. For the reasons set forth below, the Court
GRANTS Defendants’ motion and finds that the ABC
Test as applied to motor carriers is preempted by the
FAAAA, and thus that the Borello test will apply to
the claims in this case. Because the Court need not
address Defendants’ alternative arguments that the
ABC Test violates the Dormant Commerce Clause or
that it may not be applied retroactively, the Court DENIES Defendants’ motion without prejudice as to
those two issues.
II. Relevant Background
Defendants are motor carriers that operate or
have operated “trucking and drayage compan[ies] . . .
in and around the Ports of Los Angeles and Long
Beach.” (Compl. ¶ 2.) Defendants utilize the services
of independent owner-operator truck drivers to perform drayage— “the short distance transportation of
cargo by truck to and from the ports.” (Id.)
On January 8, 2018, Plaintiff filed the Complaints
at issue in these three related cases,2 each alleging
two causes of action under the Unfair Competition
Law (“UCL”), Cal. Bus. & Prof. Code § 17200, et seq.:

2

The Court’s Order applies to the three related cases filed on
January 8, 2018 by the City Attorney of Los Angeles: People v.
Cal Cartage Transportation Express LLC, et al. (BC689320); People v. CMI Transportation LLC’, et al. (BC689321); and People v.
K&R Transportation California LLC, et al. (BC689322).

34a
a first cause of action predicated on Defendants’ alleged misclassification of truck drivers as independent contractors, and a second cause of action predicated on Defendants’ alleged violations of the federal
Truth-in-Leasing Regulations, 49 C.F.R. § 376.1, et
seq. (1979). At the time Plaintiff filed the lawsuits,
the test for worker classification in California was
governed by Borello.
In April 2018, the California Supreme Court decided Dynamex, in which the Court replaced the Borello test for claims brought under California’s Wage
Orders. Through Dynamex, the California Supreme
Court adopted an “ABC Test,” which renders workers
presumptive employees unless the putative employer
demonstrates each of the following:
(A) that the worker is free from the control
and direction of the hiring entity in connection
with the performance of the work, both under
the contract for the performance of the work
and in fact,
(B) that the worker performs work that is outside the usual course of the hiring entity’s
business, and
(C) that the worker is customarily engaged in
an independently established trade, occupation, or business.
(Dynamex, supra, 4 Cal.5th at p. 964.)
On September 18, 2019, California Governor
Gavin Newsom signed AB 5 into law. AB 5 codified
the ABC Test and, when it takes effect on January 1,
2020, will expand the reach of the ABC Test to apply
to all claims under the Labor Code and the Unemployment Insurance Code. The three prongs of the ABC

35a
Test codified by AB 5 are identical to the prongs of Dynamex. (AB 5, § 2(a)(1).) AB 5 also includes certain
exceptions that were not part of the Dynamex test, including an exception for “business-to-business contracting relationship[s]” (id., § 2(e)), which is discussed in more detail below. Under the terms of AB 5,
“[i]f a court of law rules that the three-part [ABC] test
... cannot be applied to a particular context” due, for
example, to federal preemption, “then the determination of employee or independent contractor status in
that context shall instead by governed by [Borello].”
(Id., § 2(a)(3).)
The Parties disagree whether the ABC Test or the
Borello test applies to Plaintiffs misclassificationbased UCL claims. Thus, the Court permitted Defendants to submit a motion in limine addressing the
threshold legal issues of (a) whether Dynamex is
preempted by federal law; and (b) whether Dynamex
can be applied retroactively.
Following several
rounds of briefing and two hearings on November 6
and November 25, Defendants’ motion is now ripe for
determination.
III. FAAAA Preemption
Independent contractor owner-operators—independent truckers who lease their vehicles and services
to a licensed motor carrier in order to move freight under the motor carrier’s operating authority—have
long been a feature of the U.S. trucking industry.
(Am. Trucking Assns. v. United States (1953) 344 U.S.
298, 303 [“Carriers . . . have increasingly turned to
owner-operator truckers . . . . By a variety of arrangements, the authorized carriers hire them to conduct
operations under the former’s permit.”]; Central Forwarding, Inc. v. ICC (5th Cir. 1983) 698 F.2d 1266,

36a
1267 [“Owner-operators are the ‘independent truckers’ of song and legend. They are persons owning one
or a few trucks who lack [motor carrier] operating authority. Since they cannot transport regulated commodities in interstate commerce in their own right, . .
. they lease their services and equipment to a carrier
in order to utilize the carrier’s operating authority.”].)
The relationship between motor carriers and independent truckers has been the subject of extensive
federal regulation. In 1978, Congress determined
that “[t]he independent owner-operator is undoubtedly regarded as one of the most efficient movers of
goods and accounts for approximately 40 percent of all
intercity truck traffic in the United States.” (H.R.
Rep. No. 1812, 95th Cong., 2d Sess. 5 (1978) (“H.R.
Rep. No. 1812”).) In 1979, the federal government enacted the Truth-in-Leasing Regulations, 49 C.F.R.
§ 376.1, et seq., to provide a uniform set of rules and
guidelines for independent contractor owner-operators nationwide. (44 Fed.Reg. 4680 (1979) [noting
that the Truth-in-Leasing Regulations govern the relationship “between the carrier and owner-operator”
in order to “promote the stability and economic welfare of the independent trucker”].) The following year,
Congress passed the Motor Carrier Act of 1980, 49
U.S.C. § 10101, et seq., to eliminate the barriers to entry that states had imposed on truckers seeking to enter the motor carrier industry.
In 1994, Congress enacted the FAAAA’s preemption provision, which prohibits states from “enact[ing]
or enforc[ing] a law, regulation, or other provision
having the force and effect of law related to a price,
route, or service of any motor carrier . . . with respect
to the transportation of property.”
(49 U.S.C.
§ 14501(c)(1).) Congress’s stated goal was eliminating

37a
the patchwork of state and local regulations that had
bogged down the motor carrier industry and increased
costs for motor carriers and consumers. (See H.R.
Conf. Rep. No. 103-677, 103d Cong., 2d Sess. 87 (1994)
[“The sheer diversity of these [state] regulatory
schemes is a huge problem for national and regional
carriers attempting to conduct a standard way of doing business.”]; id. [disparate state treatment of motor
carriers “causes significant inefficiencies, increased
costs, reduction of competition, inhibition of innovation and technology and curtails the expansion of markets”].) Congress explained that “[l]ifting of these antiquated controls will permit our transportation companies to freely compete more efficiently and provide
quality service to their customers. Service options
will be dictated by the marketplace; and not by an artificial regulatory structure.” (Id. at pp. 87-88.) As
one example of a state law that Congress intended to
preempt, Congress pointed to a California law disfavoring motor carriers “using a large proportion of
owner-operators instead of company employees.” (Id.
at p. 87.)
In enacting the FAAAA preemption provision,
Congress intentionally duplicated the language of the
Airline Deregulation Act (“ADA”), thereby replicating
the “broad preemption interpretation adopted by the
United States Supreme Court in Morales v. Trans
World Airlines, Inc.” (Id. at p. 83, citing Morales v.
Trans World Airlines, Inc. (1992) 504 U.S. 374)3 In
3

Conversely, the preemption provision’s enumerated exceptions are to be construed narrowly: “There has been concern
raised that States . . . may instead attempt to regulate intrastate
trucking markets through its unaffected authority to regulate
matters such as safety, vehicle size and weight, insurance and
self-insurance requirements, or hazardous materials routing
matters. The conferees do not intend for States to attempt to de

38a
Morales, the Supreme Court held that Congress “express[ed] a broad pre-emptive purpose” because the
phrase “related to” is “deliberately expansive” and
“conspicuous for its breadth.” (Morales, supra, at
pp. 383-384.) Thus, the FAAAA preempts any state
law that affects motor carrier prices, routes, and services in anything other than a “tenuous, remote, or peripheral [] manner.” (Id. at p. 390.) A law or regulation is “related to” prices, routes, or services for purposes of FAAAA preemption if it has a “direct or indirect” effect on them. (Dilts v. Penske Logistics, LLC
(9th Cir. 2014) 769 F.3d 637, 644-645; see also Rowe
v. New Hampshire Motor Transport Assn. (2008) 552
U.S. 364, 375; Morales, supra, 504 U.S. at p. 386.)
FAAAA preemption “occurs at least where state laws
have a significant impact related to Congress’ deregulatory and pre-emption-related objectives,” which include ensuring that motor carriers’ rates “reflect maximum reliance on competitive market forces, thereby
stimulating efficiency, innovation, and low prices, as
well as variety and quality.” (Rowe, supra, 552 U.S.
at p. 371.) Thus, the FAAAA prevents “a State’s direct
substitution of its own governmental commands for
competitive market forces in determining (to a significant degree) the services that motor carriers will provide.” (Id. at p. 372)4

facto regulate prices, routes or services of intrastate trucking
through the guise of some form of unaffected regulatory authority.” (H.R. Conf. Rep. No. 103-677, supra, at p. 83.)
4
The California Supreme Court has held that the typical presumption against federal preemption does not apply to the
FAAAA: “[N]either Rowe, nor Morales, nor Wolens ‘adopted [the]
position . . . that we should presume strongly against preempting
in areas historically occupied by state’ law.” (People ex rel. Harris
v. Pac Anchor Transp., Inc. (2014) 59 Cal.4th 772, 778-779.) The

39a
The sole difference between the ADA’s preemption
provision and the FAAAA’s preemption provision is a
qualifying phrase in the FAAAA provision limiting
preemption to those laws having an effect “with respect to the transportation of property.” (49 U.S.C.
§ 14501(c)(1).) As the Supreme Court has explained,
this limits the preemptive scope of the FAAAA to
those laws that have “a direct [or] an indirect connection to any transportation services a motor carrier offers its customers.” (Dan’s City Used Cars, Inc. v.
Pelkey (2013) 569 U.S. 251, 252-253.)
IV. Analysis
Several state and federal courts in California and
Massachusetts (which uses the same ABC Test) have
held that the ABC Test is preempted by the FAAAA
in the motor carrier context because Prong B of the
test effectively prohibits motor carriers from utilizing
independent owner-operator truck drivers.
(See
Mass. Delivery Assn. v. Healey (1st Cir. 2016) 821 F.3d
187; Schwann v. FedEx Ground Package Sys., Inc. (1st
Cir. 2016) 813 F.3d 429; Valadez v. CSX Intermodal
Terminals, Inc.(N.D.Cal. Mar. 15, 2019) 2019 WL
1975460; Alvarez v. XPO Logistics Cartage LLC
(C.D.Cal. Nov. 15, 2018) 2018 WL 6271965; Chambers
v. RDI Logistics, Inc. (2016) 476 Mass. 95.) For the
reasons set forth below, this Court agrees.

Court therefore does not employ a presumption against preemption, and instead conducts an “analysis of the underlying state
regulations,” legislation, and decisional authority at issue. (Id.
at p. 780, citing Morales, supra, 504 U.S. at p. 388.)

40a
A. Pac Anchor Does Not Dictate The Outcome
Of Defendants Motion
As an initial matter, Plaintiff argues that the California Supreme Court’s decision in People ex rel. Harris v. Pac Anchor Transp., Inc. (2014) 59 Cal 4th 772
forecloses FAAAA preemption of the ABC Test. If
Plaintiff is correct, then this Court is bound to apply
Pac Anchor and deny Defendants’ motion. (See People
v. Latimer (1993) 5 Cal.4th 1203, 1213; Auto Equity
Sales, Inc. v. Sup. Ct. (1962) 57 Cal.2d 450, 454 [lower
courts must follow appellate courts’ unambiguous
holdings on “precise question[s]” that have been “considered and passed upon”].)
In Pac Anchor, the California Supreme Court addressed the question “whether an action under the unfair competition law . . . based on a trucking company’s
alleged violation of state labor and insurance laws” is
preempted by the FAAAA, answering in the negative.
(Pac Anchor, supra, 59 Cal.4th at p. 775.) That is a
different question than the one presented here in two
respects. First, the defendants in Pac Anchor sought
preemption of the UCL action itself—Pac Anchor
arose in the context of a motion for judgment on the
pleadings, which, if granted, would have barred the
plaintiff’s UCL action in its entirety. (Id. at p. 777.)
Unlike in Pac Anchor, the Defendants in this case are
not arguing that the Plaintiff’s UCL action is
preempted and cannot proceed; they agree with Pac
Anchor’s conclusion that the action can proceed under
the Borello standard. Second, Pac Anchor was decided
several years before Dynamex or AB 5 came into being, so the state labor and insurance laws at issue
were at the time evaluated under the Borello standard, not the ABC Test. Thus, the Supreme Court did

41a
not have occasion in Pac Anchor to consider the precise question of whether the ABC Test is preempted
under the FAAAA. (In re Marriage of Conejo (1996)
13 Cal.4th 381, 388 [“It is axiomatic that cases are not
authority for propositions not considered.”].)5
Nevertheless, Plaintiff argues that Pac Anchor
stands for a broader proposition: that there can be no
FAAAA preemption of California’s generally applicable labor and employment laws, including in particular laws that set forth the generally applicable test for
distinguishing between employees and independent
contractors. To be sure, certain language in the Supreme Court’s decision could be read to support such
a broad proposition. For example, in the portion of the
opinion addressing the defendants’ facial challenge to
the UCL, the Court upheld the law in part because
“defendants have conceded, as they must, that the
FAAAA does not preempt generally applicable employment laws that affect prices, routes, and services.”
(Pac Anchor, supra, 59 Cal.4th at p. 783.) Later, in
the portion of the opinion addressing the defendants’
as-applied challenge to the UCL, the Court upheld the
law in part because the UCL is one of many “generally
applicable labor and employment laws,” and because
other jurisdictions have similar “generally applicable
5

See also Fairbanks v. Sup. Ct. (2009) 46 Cal.4th 56, 64 [“[A]
judicial decision is not authority for a point that was not actually
raised and resolved.”]; People v. Knoller (2007) 41 Cal.4th 139,
169 [“It is axiomatic that language in a judicial opinion is to be
understood in accordance with the facts and issues before the
court. An opinion is not authority for propositions not considered. An appellate decision is not authority for everything said
in the court’s opinion but only for the points actually involved
and actually decided.”]; Mercury Ins. Grp. v. Sup. Ct. (1998) 19
Cal.4th 332, 348 [“A decision, of course, is not authority for what
it does not consider.”].

42a
laws governing when a worker is an independent contractor (or the equivalent) and when a worker is an
employee.” (Id. at pp. 785-786.)
Other portions of the opinion, however, suggest
that the rule has limitations. In particular, the California Supreme Court explained that FAAAA preemption “calls for an analysis of the underlying state regulations to see if they relate to motor carrier prices,
routes, or services when enforced through the UCL.”
(Id. at pp. 784-785.) And the Court found it significant that the People were not seeking to prohibit the
motor carriers’ use of independent contractors: “The
defendants’ assertion that the People may not prevent
them from using independent contractors is correct,
but its characterization of the People’s UCL claim is
not. Nothing in the People’s UCL action would prevent defendants from using independent contractors.”
(Id. at p. 785, emphasis added.)
In rejecting the preemption argument advanced in
Pac Anchor, the California Supreme Court characterized the People’s position as follows: “if defendants
pay individuals to drive their trucks, they must classify the[se] drivers appropriately.” (Id.) This Court
reads that language to mean that a labor law distinguishing employees from independent contractors
can, in appropriate circumstances, be applied to motor
carriers as it could to other businesses, and motor carriers can face consequences if they misclassify their
drivers. Defendants in this case have never contended
otherwise, and whether they correctly classified drivers would be the central issue in this case were it to
proceed under the Borello standard should the Court
find preemption. But what makes the present case
different from Pac Anchor is that, according to Defendants, the ABC Test (which was not at issue in Pac

43a
Anchor) would not just distinguish employees from independent contractors, but would prohibit the use of
independent contractors altogether. If Defendants
are correct and the ABC Test does prohibit motor carriers from using independent owner-operator truck
drivers, then Pac Anchor in fact points to a finding of
preemption, because a state law “may not . . . prevent
defendants from using independent contractors.” (Id.)
Importantly, Plaintiff agrees with that conclusion,
conceding that Pac Anchor leads to a finding of
preemption in a case in which a state law prohibits
motor carriers from using independent owner-operators: “[T]he People have never contended that Pac Anchor held that an employment law of general applicability can never be preempted. The People’s position
is simply that Pac Anchor means what it says, and
such laws are preempted only where they ‘prevent’ the
use of independent contractors.” (The People’s Supp.
Br. at p. 4, fn. 3; see also id. at p. 2 [“Under the
FAAAA, a generally applicable law that defines the
standard for employment status is only preempted
where it forces motor carriers to use employee drivers,
rather than independent contractors.”].)
Moreover, in a decision post-dating Pac Anchor,
the Ninth Circuit agreed with the proposition that
laws prohibiting motor carriers from using independent owner-operators would likely be preempted by the
FAAAA. (Cal. Trucking Assn. v. Su (9th Cir. 2018) 903
F.3d 953, 964 [discussing the “obvious proposition
that an ‘all or nothing’ rule requiring services be performed by certain types of employee drivers . . . [is]
likely preempted”].) Indeed, the Ninth Circuit noted
in dicta that the very ABC Test at issue here is likely
preempted: “[T]he ‘ABC’ test may effectively compel
a motor carrier to use employees for certain services

44a
because, under the ‘ABC’ test, a worker providing a
service within an employer’s usual course of business
will never be considered an independent contractor.”
(Id.)
U.S. Supreme Court decisions both before and after Pac Anchor confirm that laws of general applicability are not immune from federal preemption. In the
ADA context (the law that Congress used as a model
for the FAAAA preemption provision), the Supreme
Court was clear on this point:
[P]etitioner advances the notion that only
state laws specifically addressed to the airline
industry are pre-empted, whereas the ADA
imposes no constraints on laws of general applicability. Besides creating an utterly irrational loophole (there is little reason why
state impairment of the federal scheme should
be deemed acceptable so long as it is effected
by the particularized application of a general
statute), this notion similarly ignores the
sweep of the “relating to” language. We have
consistently rejected this precise argument in
our ERISA cases: “[A] state law may ‘relate
to’ a benefit plan, and thereby be pre-empted,
even if the law is not specifically designed to
affect such plans, or the effect is only indirect.”
(Morales, supra, 504 U.S. at p. 386, quoting IngersollRand Co. v. McClendon (1990) 498 U.S. 133, 139, emphasis added.) More recently, two years after Pac Anchor, the U.S. Supreme Court held again (this time in
the ERISA context, another statutory model for ADA
and FAAAA preemption) that laws of general applicability can be preempted. As the Court explained, a
state regulation with forbidden effects on “a central
matter of [ERISA] plan administration” was not saved

45a
from preemption merely because it had “nothing to do
with the financial solvency of plans or the prudent behavior of fiduciaries”—the principal objectives animating ERISA’ s preemption provision. (Gobeille v.
Liberty Mut. Ins. Co. (2016) 136 S. Ct. 936, 946.) To
the contrary, “[a]ny difference in purpose does not
transform” a statute or regulation “into an innocuous
and peripheral set of additional rules.” (Id.)
The Ninth Circuit and California Court of Appeal
also have both reaffirmed, in decisions post-dating
Pac Anchor, the principle that laws of general applicability can be preempted under the FAAAA and ADA.
(Su, supra, 903 F.3d at p. 966 [“What matters is not
solely that the law is generally applicable, but where
in the chain of a motor carrier’s business it is acting
to compel a certain result . . . and what result it is
compelling.”]; People ex rel. Harris v. Delta Air Lines,
Inc. (2016) 247 Cal.App.4th 884, 902 [“We additionally
find no merit to the Attorney General’s assertions that
[] the OPPA is a law of general applicability,” and
therefore exempt from ADA preemption, because “the
high court has disposed of these arguments in Morales
and Wolens.”].)
In sum, the better reading of Pac Anchor is not
that laws of general applicability are always immune
from FAAAA preemption. Rather, Pac Anchor left
open the possibility that state laws prohibiting motor
carriers from using independent owner-operator truck
drivers might be preempted—and even suggested that
they would. The Court simply decided that the Borello
standard does not constitute such a prohibition. The
critical question in this case is whether the ABC Test
does.

46a
B. The ABS Test Is Preempted As Applied To
Motor Carriers
1. Prong B Prohibits Motor Carriers From
Using Independent Contractors
Given Plaintiff’s concession that the ABC Test
would be preempted, even under Pac Anchor, if it precludes motor carriers from using independent contractors, the Court turns to that issue first. Prong B of the
ABC Test requires that a worker be classified as an
employee unless, the employer establishes that the
worker “performs work that is outside the usual
course of the hiring entity’s business.” (Dynamex, supra, 4 Cal.5th at p. 964; AB 5, § 2(a)(1)(B).) Under
this test, it is plain that a motor carrier’s core transportation-related services cannot be performed by independent contractors. Neither party argues otherwise. Thus, absent some applicable exception, the
ABC Test prohibits motor carriers from using independent owner-operator truck drivers.
Plaintiff points to two exceptions that it says allow
motor carriers to continue using independent contractors as truck drivers: (1) AB 5’s “business-to-business”
exception (AB 5, § 2(e)); and (2) the joint employment
context. These exceptions, however, do not save AB 5.
1. Business-to-Business Exception. Under AB 5,
the ABC Test “do[es] not apply to a bona fide businessto-business contracting relationship,” where certain
enumerated criteria are met. (AB 5, § 2(e).) For several reasons, however, this exception does not aid
Plaintiff because it does not permit motor carriers to
utilize independent owner-operator truck drivers, as
that term has been used in the trucking industry, by
Congress, and by the U.S. Supreme Court for many
decades.

47a
First, the exception “does not apply to an individual worker, as opposed to a business entity, who performs labor or services for a contracting business.”
(Id., § 2(e)(2).) And in order to be a qualifying business entity, the “business service provider” must
“ha[ve] the required business license.”
(Id.,
§ 2(e)(1)(D).) For truck drivers wishing to transport
cargo in the United States, that means, at a minimum, having a federal motor carrier operating license. (See, e.g., 49 C.F.R. § 365.101.) Both Congress
and the U.S. Supreme Court, however, have explained
that the absence of a motor carrier license is a core
attribute of an independent contractor in the trucking
industry. (See H.R. Rep. No. 1812, supra, at p. 5 [defining independent owner-operators as “a person who
owns and operates one, or a few, trucks for hire without holding ICC operating authority”]; Am Trucking
Assns., supra, 344 U.S. at p. 303 [“Carriers . . . have
increasingly turned to owner-operator truckers . . . to
conduct operations under the former’s permit.”].)6 Indeed, the premise of the federal Truth-in-Leasing Regulations—which establish a uniform set of rules for
independent-contractor truckers nationwide—is that
independent owner-operators “lease” their services
and trucks to motor carriers because the contractors

6

See also Grawe, Have Truck, Will Drive: The Trucking Industry and the Use of Independent Owner-Operators Over Time
(2008) 35 Transp. L.J. 115, 116, fn. 1 [“The independent owneroperator is an independent trucker who lacks federal operating
authority.”]; Hardman, The Employment Classification Issue in
the Motor Carrier Industry (2010) 37 Transp. L.J. 27, 28 [‘Independent contractors’ include an individual who. . . leases [her]
vehicle to a motor carrier with driver service to be used in moving
freight . . . indicating the lessor of the equipment as the motor
carrier of the freight transported.”].

48a
lack independent operating authority. (See 49 C.F.R.
§§ 376.1, 376.2.)
Second, in addition to requiring licensure, the
business-to-business exception establishes a host of
other barriers to entry for independent truckers: they
must, for example, “maintain[] a business location
that is separate from the business or work location of
the contracting business” (AB 5, § 2(e)(1)(E)), “actually contract[] with other businesses to provide the
same or similar services and maintain[] a clientele” of
their own (id., § 2(e)(1)(G)), and “advertise[] . . . to the
public” (id., § 2(e)(1)(H)). These barriers to entry contradict the rationale for enacting the FAAAA preemption provision in the first place, which sought the
“[l]ifting of these antiquated controls” to allow “transportation companies to freely compete more efficiently,” so that “[s]ervice options will be dictated by
the marketplace, and not by an artificial regulatory
structure.” (H.R. Conf. Rep. No. 103-677, supra, at
pp. 87-88); see also Statement by President William J.
Clinton Upon Signing H.R. 2739, 1994 U.S.C.C.A.N.
1762-1 (Aug. 23, 1994) [“State regulation preempted
under this provision takes the form of controls on who
can enter the trucking industry within a State . . . .”].)
The Ports of Los Angeles and Long Beach have explained the importance of independent owner-operators to the U.S. drayage industry, noting that the
“[flack of barriers to entry” for independent owner-operators “has created a very competitive port drayage
sector.” (John E. Husing et al., San Pedro Bay Ports
Clean Air Action Plan (Sept. 7, 2007), p. 15, available
at https://bit.ly/2CYUaZT.)
Third, the business-to-business exception is inapplicable unless the business services provider “can negotiate its own rates” with the motor carrier. (AB 5,

49a
§ 2(e)(1)(J).) Again, however, this is inconsistent with
the federal regulations governing independent owneroperator truck drivers, which require the motor carrier to provide “clearly stated” rates to independent
owner-operators. (49 C.F.R. § 376.12(d).)
Fourth, under the business-to-business exception,
the determination of “whether an individual working
for a business service provider is an employee or independent contractor” is still governed by the ABC Test.
(AB 5, § 2(e)(3).) Thus, under Prong B, any truck drivers who work for the independent trucking company
that contracts with the motor carrier would be considered employees of that company, not independent contractors.
In short, the relationship contemplated by the
business-to-business exception is nothing like the independent contractor relationship that has been a staple of the trucking industry through nearly 70 years
of congressional proceedings and court decisions.
2. Joint employment. Plaintiff argues that the
joint employment context also provides a means for
motor carriers to continue utilizing independent contractors because the Court of Appeal has determined
that the ABC Test does not apply in the joint employment context. (See Henderson v. Equilon Enters.
(2019) 40 Cal.App.5th 1111, 1128.) This argument
suffers from a similar deficiency, however, because
truck drivers affected by the joint employment rule
are, by definition, employees of at least one company,
not independent contractors. (Id. [“In a joint employer
claim, the worker is an admitted employee of a primary employer . . . . The distinct question posed in
such claims is whether ‘another business or entity
that has some relationship with the primary employer
should properly be considered a joint employer of the

50a
worker and therefore also responsible, along with the
primary employer, for the obligations imposed by the
wage order.’”], quoting Dynamex, supra, 4 Cal.5th at
p. 915.) Thus, the joint employment context does not
permit independent owner-operator truck drivers.
2. The ABC Test Has A Substantial Effect
On Motor Carriers’ Prices, Routes, And
Services
Having concluded that the ABC Test, as codified
by AB 5, prohibits motor carriers from using independent contractors as truck drivers, the question remains whether such a prohibition has sufficient direct
or indirect effects on motor carrier prices, routes, and
services, and is therefore preempted by the FAAAA.
This Court, like many others before it, concludes that
it does.7
In Schwann v. FedEx Ground Package Sys., Inc.
(1st Cir. 2016) 813 F.3d 429, 439, the First Circuit
held that Prong B of Massachusetts’ ABC Test (which
contains the same language as California’s ABC Test)
is preempted by the FAAAA because it “mandate[s]
that any services deemed ‘usual’ to” a motor carrier’s
“course of business be performed by an employee.
Such an application of state law poses a serious potential impediment to the achievement of the FAAAA’s
7

“[A] statute’s ‘potential’ impact on carriers’ prices, routes,
and services’ need not be proven by empirical evidence; rather,
courts may `look[ ] to the logical effect that a particular scheme
has on the delivery of services.’ [Citation.] This logical effect . . .
can be sufficient even if indirect’ so that motor carriers can be
immunized ‘from state regulations that threaten to unravel Congress’s purposeful deregulation in this area.”’ (Schwann v.
FedEx Ground Package Sys., Inc. (1st Cir. 2016) 813 F.3d 429,
437, quoting Mass. Delivery Assn. v. Coakley (1st Cir. 2014) 769
F.3d 11, 21.)

51a
objectives because a court, rather than the market
participant, would ultimately determine what services that company provides and how it chooses to provide them.” (Id. at p. 438.) The First Circuit explained that the implications of Prong B’s mandated
employee relationship would necessarily affect the
motor carrier’s prices, routes, and services, thus triggering FAAAA preemption:
[B]ecause Prong 2 would mandate that FedEx
classify these individual contractors as employees, FedEx would be required to reimburse them for business-related expenses.
The logical effect of this requirement would
thus preclude FedEx from providing for firstand-last mile pick-up and delivery services
through an independent person who bears the
economic risk associated with any inefficiencies in performance. This regulatory prohibition would also logically be expected to have a
significant impact on the actual routes followed for the pick-up and delivery of packages. . . . It is reasonable to conclude that employees would have a different array of incentives that could render their selection of
routes less efficient, undercutting one of Congress’s express goals in crafting an express
preemption proviso.
(Id. at p. 439, emphases added; see also Mass. Delivery Assn. v. Healey (1st. Cir. 2016) 821 F.3d 187, 193
[following Schwann in holding that application of
Massachusetts’ Prong, B would necessarily “deprive
[the motor carrier] of its choice of method of providing
for delivery services and incentivizing the persons
providing those services”].)

52a
The Massachusetts Supreme Court has similarly
held that the ABC Test is preempted by the FAAAA:
Prong two [], in essence, requires that motor
carriers providing delivery services . . . use
employees rather than independent contractors to deliver those services. As a result, motor carriers are compelled to adopt a different
manner of providing services from what they
otherwise might choose because prong two
dictates the type of worker that will provide
the services. This likely also would have a significant, if indirect, impact on motor carriers’
services by raising the costs of providing those
services.
(Chambers v. RDI Logistics, Inc. (2016) 476 Mass. 95,
102-103.)
Federal courts in California have reached the
same result with respect to the ABC Test. In Alvarez
v. XPO Logistics Cartage LLC, the Central District of
California found that applying Prong B “would require a court to look at a motor carrier’s service, determine that the service is outside the carrier’s usual
course of business, and then bar the carrier from using
workers as independent contractors to perform that
service,” which “posed a serious potential impediment
to the FAAAA’s objectives.” (Alvarez v. XPO Logistics
Cartage LLC (C.D.Cal. Nov. 15, 2018) 2018 WL
6271965, at *4, quotations and citation omitted.)
Likewise, the Northern District of California held that
the ABC Test is preempted because “application of
Part B would require carriers to classify all workers
who performed trucking work as employees, rather
than independent contractors,” which “is impermissible” under the FAAAA. (Valadez v. CSX Intermodal

53a
Terminals, Inc. (N.D.Cal. Mar. 15, 2019) 2019 WL
1975460, at *8.)
The Ninth Circuit has also suggested that the
ABC Test is likely preempted by the FAAAA—in a decision holding that the Borello test is not preempted.
The court focused on the important differences between the two tests. (Su, supra, 903 F.3d at p. 964
[noting that, unlike Borello, “the ‘ABC’ test may effectively compel a motor carrier to use employees for certain services because, under the ‘ABC’ test, a worker
providing a service within [a motor carrier’s] usual
course of business will never be considered an independent contractor”]; id. [unlike the ABC Test, the Borello test provides flexibility for motor carriers, because “[w]hether the work fits within the usual course
of an employer’s business is one factor among many —
and not even the most important one”].)8
In contrast, the Third Circuit held that New Jersey’s version of the ABC Test is not preempted by the
FAAAA, but that holding reinforces the conclusion
that the California ABC Test is preempted. (Bedoya
v. Am. Eagle Express Inc. (3d Cir. 2019) 914 F.3d 812,
824.) Specifically, Prong B of the New Jersey ABC
provides that a worker is an employee unless she performs work “outside the [employer’s] usual course of
8

The Eastern District of California has twice come to the opposite conclusion, finding California’s ABC Test not preempted
by the FAAAA. (Henry v. Cent. Freight Lines, Inc. (E.D.Cal. Jun.
13, 2019) 2019 WL 2465330, at *7; W. States Trucking Ass ‘n v.
Schoorl (E.D.Cal. Mar. 29, 2019) 377 F.Supp.3d 1056, 10701072.) But both of those cases relied solely on precedent finding
the Borello test not preempted because it does not prevent the
use of independent contractors and failed to evaluate whether
the substantively different ABC Test does prevent motor carriers
from using independent contractors to drive trucks. Thus, the
Court finds Henry and Schoorl unpersuasive.

54a
business . . . or [performs such service] outside of all
the places of business of [the employer].” (Id. at p. 824,
quoting N.J. Stat. Ann. § 43:21-19(i)(6)(B), emphasis
added, alterations in original.) The “or” clause is pivotal because, as the Third Circuit explained, it provides motor carriers a viable “alternative method for
reaching independent contractor status—that is, by
demonstrating that the worker provides services outside of the putative employer’s ‘places of business.’
(Ibid.)
The record before the Court in this case confirms
the common-sense conclusion that AB 5 would have a
substantial impact on trucking prices, routes, and services, as motor carriers in California revamp their
business models either to utilize only employee drivers or attempt to satisfy the business-to-business exception. As the evidence shows, in those circumstances where Defendants have contracted with licensed motor-carriers to transport loads, the cost of
such transport was nearly triple the cost of using independent owner-operators for the same route. (The
People’s Opp. Br. at pp. 10-11 [demonstrating that
contracted licensed motor-carriers earned $160 for a
route from “Sears c/o Cal Cartage” to “Yusen Terminals Inc” whereas owner-operators earned $65 for the
same route].) That is precisely the sort of inefficiency
Congress sought to preempt.
Finally, this Court points out that a finding of
FAAAA preemption does not mean these cases will
cease. To the contrary, the UCL claims in this case
will proceed under the Borello standard, just as AB 5
contemplates. (AB 5, § 2(a)(3).) That is the same result the California Supreme Court reached in Pac An-

55a
chor and the same standard Plaintiff intended to apply when it filed its Complaint in January 2018, which
Plaintiff says it modeled off the Pac Anchor complaint.
V. Conclusion
Because Prong B of the ABC Test under both Dynamex and AB 5 prohibits motor carriers from using
independent contractors to provide transportation
services, the ABC Test has an impermissible effect on
motor carriers’ “price[s], route[s], [and] service[s]” and
is preempted by the FAAAA. (49 U.S.C. § 14501(c)(1).)
Defendants’ motion is GRANTED on that basis, and
DENIED without prejudice as to Defendants’ other
arguments.
Furthermore, and pursuant to Code of Civil Procedure § 166.1, the Court finds that the question of
whether the FAAAA preempts the ABC Test as implemented by Dynamex and AB 5 is “controlling question
of law as to which there are substantial grounds for
difference of opinion, appellate resolution of which
may materially advance the conclusion of the litigation.”
DATED: January 8, 2020

By:
Hon. William F. Highberger

56a
APPENDIX G
Statutory Provisions Involved
49 U.S.C. § 14501. Federal authority over
intrastate transportation
(a) MOTOR CARRIERS OF PASSENGERS.—
(1) LIMITATION ON STATE LAW.—No State or
political subdivision thereof and no interstate
agency or other political agency of 2 or more
States shall enact or enforce any law, rule, regulation, standard, or other provision having the
force and effect of law relating to—
(A) scheduling of interstate or intrastate
transportation (including discontinuance or
reduction in the level of service) provided by a
motor carrier of passengers subject to jurisdiction under subchapter I of chapter 135 of this
title on an interstate route;
(B) the implementation of any change in
the rates for such transportation or for any
charter transportation except to the extent
that notice, not in excess of 30 days, of changes
in schedules may be required; or
(C) the authority to provide intrastate or
interstate charter bus transportation.
This paragraph shall not apply to intrastate commuter bus operations, or to intrastate bus transportation of any nature in the State of Hawaii.
(2) MATTERS NOT COVERED.—Paragraph (1)
shall not restrict the safety regulatory authority

57a
of a State with respect to motor vehicles, the authority of a State to impose highway route controls
or limitations based on the size or weight of the
motor vehicle, or the authority of a State to regulate carriers with regard to minimum amounts of
financial responsibility relating to insurance requirements and self-insurance authorization.
(b) FREIGHT FORWARDERS AND BROKERS.—
(1) GENERAL RULE.—Subject to paragraph (2)
of this subsection, no State or political subdivision
thereof and no intrastate agency or other political
agency of 2 or more States shall enact or enforce
any law, rule, regulation, standard, or other provision having the force and effect of law relating
to intrastate rates, intrastate routes, or intrastate
services of any freight forwarder or broker.
(2) CONTINUATION OF HAWAII’S AUTHORITY.—
Nothing in this subsection and the amendments
made by the Surface Freight Forwarder Deregulation Act of 1986 shall be construed to affect the
authority of the State of Hawaii to continue to regulate a motor carrier operating within the State of
Hawaii.
(c) MOTOR CARRIERS OF PROPERTY.—
(1) GENERAL RULE.—Except as provided in
paragraphs (2) and (3), a State, political subdivision of a State, or political authority of 2 or more
States may not enact or enforce a law, regulation,
or other provision having the force and effect of
law related to a price, route, or service of any motor carrier (other than a carrier affiliated with a
direct air carrier covered by section 41713(b)(4))

58a
or any motor private carrier, broker, or freight forwarder with respect to the transportation of property.
(2) MATTERS NOT COVERED.—Paragraph (1)—
(A) shall not restrict the safety regulatory
authority of a State with respect to motor vehicles, the authority of a State to impose highway route controls or limitations based on the
size or weight of the motor vehicle or the hazardous nature of the cargo, or the authority of
a State to regulate motor carriers with regard
to minimum amounts of financial responsibility relating to insurance requirements and
self-insurance authorization;
(B) does not apply to the intrastate transportation of household goods; and
(C) does not apply to the authority of a
State or a political subdivision of a State to enact or enforce a law, regulation, or other provision relating to the regulation of tow truck
operations performed without the prior consent or authorization of the owner or operator
of the motor vehicle.
(3) STATE
TICES.—

STANDARD TRANSPORTATION PRAC-

(A) CONTINUATION.—Paragraph (1) shall
not affect any authority of a State, political
subdivision of a State, or political authority of
2 or more States to enact or enforce a law, regulation, or other provision, with respect to the
intrastate transportation of property by motor
carriers, related to—
(i) uniform cargo liability rules,

59a
(ii) uniform bills of lading or receipts
for property being transported,
(iii) uniform cargo credit rules,
(iv) antitrust immunity for joint line
rates or routes, classifications, mileage
guides, and pooling, or
(v) antitrust immunity for agent-van
line operations (as set forth in section
13907),
if such law, regulation, or provision meets the requirements of subparagraph (B).
(B) REQUIREMENTS.—A law, regulation, or
provision of a State, political subdivision, or
political authority meets the requirements of
this subparagraph if—
(i) the law, regulation, or provision covers the same subject matter as, and compliance with such law, regulation, or provision is no more burdensome than compliance with, a provision of this part or a
regulation issued by the Secretary or the
Board under this part; and
(ii) the law, regulation, or provision
only applies to a carrier upon request of
such carrier.
(C) ELECTION.—Notwithstanding any
other provision of law, a carrier affiliated with
a direct air carrier through common controlling ownership may elect to be subject to a
law, regulation, or provision of a State, political subdivision, or political authority under
this paragraph.

60a
(4) NONAPPLICABILITY TO HAWAII.—This subsection shall not apply with respect to the State of
Hawaii.
(5) LIMITATION ON STATUTORY CONSTRUCTION.—Nothing in this section shall be construed
to prevent a State from requiring that, in the case
of a motor vehicle to be towed from private property without the consent of the owner or operator
of the vehicle, the person towing the vehicle have
prior written authorization from the property
owner or lessee (or an employee or agent thereof)
or that such owner or lessee (or an employee or
agent thereof) be present at the time the vehicle is
towed from the property, or both.

61a
California Labor Code § 2275
(a) As used in this article:
(1) “Dynamex” means Dynamex Operations
W. Inc. v. Superior Court (2018) 4 Cal.5th 903.
(2) “Borello” means the California Supreme
Court’s decision in S. G. Borello & Sons, Inc. v. Department of Industrial Relations (1989) 48 Cal.3d
341.
(b)
(1) For purposes of this code and the Unemployment Insurance Code, and for the purposes of
wage orders of the Industrial Welfare Commission, a person providing labor or services for remuneration shall be considered an employee rather than an independent contractor unless the
hiring entity demonstrates that all of the following conditions are satisfied:
(A) The person is free from the control
and direction of the hiring entity in connection with the performance of the work,
both under the contract for the performance of the work and in fact.
(B) The person performs work that is
outside the usual course of the hiring entity’s business.
(C) The person is customarily engaged
in an independently established trade, occupation, or business of the same nature
as that involved in the work performed.
(2) Notwithstanding paragraph (1), any exceptions to the terms “employee,” “employer,” “em-

62a
ploy,” or “independent contractor,” and any extensions of employer status or liability, that are expressly made by a provision of this code, the Unemployment Insurance Code, or in an applicable
order of the Industrial Welfare Commission, including, but not limited to, the definition of “employee” in subdivision 2(E) of Wage Order No. 2,
shall remain in effect for the purposes set forth
therein.
(3) If a court of law rules that the three-part
test in paragraph (1) cannot be applied to a particular context based on grounds other than an express exception to employment status as provided
under paragraph (2), then the determination of
employee or independent contractor status in that
context shall instead be governed by the California Supreme Court’s decision in S. G. Borello &
Sons, Inc. v. Department of Industrial Relations
(1989) 48 Cal.3d 341 (Borello).

63a
California Labor Code § 2276
Section 2775 and the holding in Dynamex do not apply
to a bona fide business-to-business contracting relationship, as defined below, under the following conditions:
(a) If an individual acting as a sole proprietor, or
a business entity formed as a partnership, limited liability company, limited liability partnership, or corporation (“business service provider”) contracts to provide services to another such business or to a public
agency or quasi-public corporation (“contracting business”), the determination of employee or independent
contractor status of the business services provider
shall be governed by Borello, if the contracting business demonstrates that all of the following criteria are
satisfied:
(1) The business service provider is free from
the control and direction of the contracting business entity in connection with the performance of
the work, both under the contract for the performance of the work and in fact.
(2) The business service provider is providing
services directly to the contracting business rather than to customers of the contracting business. This subparagraph does not apply if the
business service provider’s employees are solely
performing the services under the contract under
the name of the business service provider and the
business service provider regularly contracts with
other businesses.
(3) The contract with the business service provider is in writing and specifies the payment
amount, including any applicable rate of pay, for

64a
services to be performed, as well as the due date
of payment for such services.
(4) If the work is performed in a jurisdiction
that requires the business service provider to have
a business license or business tax registration, the
business service provider has the required business license or business tax registration.
(5) The business service provider maintains a
business location, which may include the business
service provider’s residence, that is separate from
the business or work location of the contracting
business.
(6) The business service provider is customarily engaged in an independently established business of the same nature as that involved in the
work performed.
(7) The business service provider can contract
with other businesses to provide the same or similar services and maintain a clientele without restrictions from the hiring entity.
(8) The business service provider advertises
and holds itself out to the public as available to
provide the same or similar services.
(9) Consistent with the nature of the work, the
business service provider provides its own tools,
vehicles, and equipment to perform the services,
not including any proprietary materials that may
be necessary to perform the services under the
contract.
(10) The business service provider can negotiate its own rates.

65a
(11) Consistent with the nature of the work,
the business service provider can set its own hours
and location of work.
(12) The business service provider is not performing the type of work for which a license from
the Contractors’ State License Board is required,
pursuant to Chapter 9 (commencing with Section
7000) of Division 3 of the Business and Professions Code.
(b) When two bona fide businesses are contracting
with one another under the conditions set forth in subdivision (a), the determination of whether an individual worker who is not acting as a sole proprietor or
formed as a business entity, is an employee or independent contractor of the business service provider or
contracting business is governed by Section 2775.
(c) This section does not alter or supersede any existing rights under Section 2810.3.

66a
Mass. Gen. Laws ch. 49, § 148B
(a) For the purpose of this chapter and chapter
151, an individual performing any service, except as
authorized under this chapter, shall be considered to
be an employee under those chapters unless:—
(1) the individual is free from control and direction in connection with the performance of the
service, both under his contract for the performance of service and in fact; and
(2) the service is performed outside the usual
course of the business of the employer; and,
(3) the individual is customarily engaged in an
independently established trade, occupation, profession or business of the same nature as that involved in the service performed.
(b) The failure to withhold federal or state income
taxes or to pay unemployment compensation contributions or workers compensation premiums with respect
to an individual’s wages shall not be considered in
making a determination under this section.
(c) An individual’s exercise of the option to secure
workers’ compensation insurance with a carrier as a
sole proprietor or partnership pursuant to subsection
(4) of section 1 of chapter 152 shall not be considered
in making a determination under this section.
(d) Whoever fails to properly classify an individual
as an employee according to this section and in so doing fails to comply, in any respect, with chapter 149,
or section 1, 1A, 1B, 2B, 15 or 19 of chapter 151, or
chapter 62B, shall be punished and shall be subject to
all of the criminal and civil remedies, including debarment, as provided in section 27C of this chapter. Who-

67a
ever fails to properly classify an individual as an employee according to this section and in so doing violates chapter 152 shall be punished as provided in section 14 of said chapter 152 and shall be subject to all
of the civil remedies, including debarment, provided
in section 27C of this chapter. Any entity and the
president and treasurer of a corporation and any officer or agent having the management of the corporation or entity shall be liable for violations of this section.
(e) Nothing in this section shall limit the availability of other remedies at law or in equity.

68a
820 Ill. Comp. Stat. § 115-2
For all employees, other than separated employees, “wages” shall be defined as any compensation
owed an employee by an employer pursuant to an employment contract or agreement between the 2 parties, whether the amount is determined on a time,
task, piece, or any other basis of calculation. Payments to separated employees shall be termed “final
compensation” and shall be defined as wages, salaries,
earned commissions, earned bonuses, and the monetary equivalent of earned vacation and earned holidays, and any other compensation owed the employee
by the employer pursuant to an employment contract
or agreement between the 2 parties. Where an employer is legally committed through a collective bargaining agreement or otherwise to make contributions
to an employee benefit, trust or fund on the basis of a
certain amount per hour, day, week or other period of
time, the amount due from the employer to such employee benefit, trust, or fund shall be defined as “wage
supplements”, subject to the wage collection provisions of this Act.
As used in this Act, the term “employer” shall include any individual, partnership, association, corporation, limited liability company, business trust, employment and labor placement agencies where wage
payments are made directly or indirectly by the
agency or business for work undertaken by employees
under hire to a third party pursuant to a contract between the business or agency with the third party, or
any person or group of persons acting directly or indirectly in the interest of an employer in relation to an
employee, for which one or more persons is gainfully
employed.

69a
As used in this Act, the term “employee” shall include any individual permitted to work by an employer in an occupation, but shall not include any individual:
(1) who has been and will continue to be free
from control and direction over the performance of
his work, both under his contract of service with
his employer and in fact; and
(2) who performs work which is either outside
the usual course of business or is performed outside all of the places of business of the employer
unless the employer is in the business of contracting with third parties for the placement of employees; and
(3) who is in an independently established
trade, occupation, profession or business.
The following terms apply to an employer’s use of
payroll cards to pay wages to an employee under the
requirements of this Act:
“Payroll card” means a card provided to an employee by an employer or other payroll card issuer as
a means of accessing the employee’s payroll card account.
“Payroll card account” means an account that is
directly or indirectly established through an employer
and to which deposits of a participating employee’s
wages are made.
“Payroll card issuer” means a bank, financial institution, or other entity that issues a payroll card to
an employee under an employer payroll card program.

70a
N.J. Stat. Ann. § 43-21-19
Definitions. As used in this chapter (R.S.43:21-1 et
seq.), unless the context clearly requires otherwise:
***
(i) (6) Services performed by an individual for remuneration shall be deemed to be employment subject
to this chapter (R.S.43:21-1 et seq.) unless and until it
is shown to the satisfaction of the division that:
(A) Such individual has been and will continue
to be free from control or direction over the performance of such service, both under his contract of
service and in fact; and
(B) Such service is either outside the usual
course of the business for which such service is
performed, or that such service is performed outside of all the places of business of the enterprise
for which such service is performed; and
(C) Such individual is customarily engaged in
an independently established trade, occupation,
profession or business.

